w

T

;o0 =8229
SUPREME COURT OF THE UNITED STATES

MARTIN REINER
Petitioner
vs.
JOHN ROBERTS, ELENA KAGAN, LAURIE WOOD, MARA SILVER, rrTTEf)
AND CALIFORNIA STATE BAR .
1
r 1L
Respondents.

JUN 0 1 2021

On Petition for Writ of Certiorari to the United States Court of Appeals
for the District of Columbia Circuit

PETITION FOR WRIT OF CERTIORARI

Martin Reiner, Pro Se
1414 Greenfield Avenue, #302
Los Angeles, California 90025
Telephone: (310)709-0236

QUESTIONS PRESENTED
(Of Acute National Importance)
1. Respectfully, what is the obligation of the Justices of the Supreme Court of the United States
(“SCOTUS”), under HAZEL-ATLAS GLASS CO. vs. HARTFORD-EMPIRE CO. 322 U. S.
238 (1944) (“HAZEL”), when the Chief Justice, John Roberts (“Roberts”), and Associate
Justice, Elena Kagan (“Kagan”), along with SCOTUS Deputy Clerks Laurie Wood (“Wood”),
and Mara Silver (“Silver”), are participating in surreptitious criminal malfeasance of violating
Title 18 United States Code Sections 241,242,1341, and 1512(c)(2), by their imposing extrinsic
fraud upon the institution of the Court by deprivation of a litigant’s federal constitutional right of
Procedural Due Process, and its component part of having a meaningful opportunity to be heard,
in SCOTUS case Number 18D3030, through secrecy in violation of JOINT ANTI-FASCIST
REFUGEE COMMITTEE VS. MCGRATH 341 U. S. 123 (1951)(“JOINT”), as well as in the
subsequent matter of United States District Court for the District of Columbia (“USDC-DC”)
case number 1:21-cv-00031-APM/United States Court of Appeals for the District of Columbia
(“USCOA”) case number 20-5190, by prohibited ratification of a legally null and void conviction
(which is null and void on its face) that was contrived in defiance ofthe admittedfailure to meet
the required burden ofproof at trial (as admitted by the involved judicial officers in the
judgment roll of the case) to cover-up the malfeasance of persons they wish to wrongfully
protect by the obstruction ofjustice, to enable those persons to evade justice? What is the
obligation owed by the Justices of SCOTUS to the defrauded litigant so victimized? What is the
obligation owed by the Justices of SCOTUS to our American society, to protect our society’s
interest in the integrity of American jurisprudence?

PARTIES TO THE PROCEEDING

The Petitioner is Martin Reiner.

The Respondents are:

-

(1) John Roberts (“Roberts”) in his official capacity as Chief Justice of SCOTUS,
(2) Elena Kagan (“Kagan”) in her official capacity as Associate Justice of SCOTUS,
(3)Laurie Wood (“Wood”) in her official capacity as a Deputy Clerk of SCOTUS,
(4) Mara Silver (“Silver”) in her official capacity as a Deputy Clerk of SCOTUS, and
(5) the California State Bar (“CSBar”), a state corporation.
None of the DOE Defendants have been named.

THE SUBJECT RELATED CASES
(1)SCOTUS case number 18D3030, for which a disposition was entered March 4, 2019,
(2) USDC-DC case number 1:20-cv-00031-APM, for which a disposition was entered on April 3,
2020, and
(3) USCOA case number 20-5190, for which denial of re-hearing was entered on March 2, 2021.

li

TABLE OF CONTENTS
Questions Presented

i

Parties to the Proceeding

11

Related Cases

n

Table of Contents

iii

Appendix Table of Contents

iv

Table of Authorities

v

The Opinions Below

Vll

Jurisdiction Statement

vii

Constitutional Provisions Involved

vii

Statement of the Case

1

The Reason for Granting the Requested Writ

7

I. WHAT IS OWED TO THE CHEATED. VICTIMIZED. LITIGANT
UNDER THE HAZEL CASE

7

II. WHAT IS OWED TO OUR SOCIETY UNDER THE HAZEL CASE

8

II. CONCLUSION

8

iii

APPENDIX TABLE OF CONTENTS
APPENDIX A - The 2-page USCOA case number 20-5190 December 3, 2020 Judgment
APPENDIX B - The 2-page USDC-DC case number l:20-cv-00031-APM April 3, 2020
Memorandum Opinion, the 1-page April 3,2020 Dismissal Order, the 1-page
April 29,2020 Minute Order, and the 1-page May 19,2020 Minute Order
APPENDIX C - The 1-page USCOA case number 20-5190 March 2,2021 Order denying
Rehearing
APPENDIX D - The 31 -page verified Complaint in USDC-DC case number 1:20-cv-00031 APM and the 39-page Exhibits
APPENDIX E - The 1-page (page 10) of the judgment roll in the disposition of CSBar Court
case number 09-0-10207
APPENDIX F - The 2-page January 15, 2020 letter to Roberts
APPENDIX G - The 1-page February 24, 2020 e-mail from United States Attorney Brenda
Gonzalez-Horowitz
APPENDIX H - The 36-page Appellant’s Opening Brief in USCOA case number 20-5190
APPENDIX I - The 28-page Petition for Rehearing in USCOA case number 20-5190

IV

TABLE OF AUTHORITIES
PAGES
FEDERAL CASES
CANATELLAvs. STOVITZ

365 F. Supp. 2d 1064 (N. D. Cal. 2005)

1

COFFIN vs. UNITED STATES
156U. S. 432(1895)

3

DENNIS vs. SPARKS
449 U. S. 24 (1980)

6

GRIFFIN vs. GRIFFIN
327 U. S. 220(1945)

4

HAGANS vs. LAVINE
415 U. S. 528 (1974)

6

HAZEL-ATLAS GLASS CO. vs. HARTFORD-EMPIRE CO.
322 U. S. 238(1944)

i,6,7,8

JACKSON vs. VIRGINIA
443 U. S. 307 (1979)

3

JOINT ANTI-FASCIST REFUGEE COMMITTEE VS. MCGRATH
341 U. S. 123 (1951)

l

IN RE INTERMAGNETICS AMERICA. INC.
926 F. 2d 912 (9th Cir. 1991)

3.

KALB vs. FEUERSTEIN
308U. S. 433 (1940)

5

LANCE vs. DENNIS
546 U. S. 459 (2006)

7

MARSHALL vs. JERICHO. INC.
446 U. S. 238(1980)

3

MATHEWS vs. ELDRIDGE
424 U. S.U. S. 319 (1976)

4
v

OLD WAYNE MUTUAL LIFE ASS’N vs. MCDONOUGH
204 U. S. 8 (1907)

4

UNITED STUDENT AID FUNDS. INC, vs. ESPINOZA
559 U.S. 260 (2010)

3

WILLNER vs. COMMITTEE ON CHARACTER
373 U. S. 96 (1963)

7

WINDSOR vs. MCVEIGH
93 U. S. 274(1876)

4

STATE CASES
HIRSH vs. JUSTICES OF THE SUPREME COURT OF THE STATE
OF CALIFORNIA (67 F. 3d 708 (9th Cir. 1995)

7

IN RE BERRY
(1968) 68 Cal. 2d 137

1

PEOPLE vs. GONZALEZ
(1996) 12 Cal. 4th 804

1

FEDERAL STATUTES
Title 18 United States Code Section 241

i

Title 18 United States Code Section 242

i

Title 18 United States Code Section 1341

i

Title 18 United States Code Section 1512(c)(2)

i

STATE STATUTES
California Business and Professions Code Section 6001

5

California Business and Professions Code Section 6085

6

FEDERAL CONSTITUTIONAL AMENDMENTS
5 Amendment

vii

14th Amendment

vii
vi

THE OPINIONS BELOW
None of the lower Court dispositions involved in this case have been published.
The USCOA Judgment, in its case number 20-5190, that was filed on December 3, 2020,
constitutes the entirety of the 2-page Appendix A
The USCOA Order denying Rehearing, in its case number 20-5190, that was filed on March 2,
2021, constitutes the entirety of the 1-page Appendix C
The USDC-DC Memorandum Opinion, in its case number 1:20-cv-00031-APM, that was filed
on April 3, 2020 is the first two pages of Appendix B, and the USDC-DC Dismissal Order, in its
case number 1:20-cv-00031-APM, that was filed on April 3,2020, is page three of Appendix B

JURISDICTION STATEMENT
The jurisdiction of this Court is invoked under Title 28 United States Code Section 1254(1),
from the USCOA’s March 2, 2021 Order denying Rehearing.

CONSTITUTIONAL PROVISIONS INVOLVED
Procedural Due Process, as guaranteed by the 5th and 14th Amendments to the federal
Constitution, as provided verbatim in relevant part, as follows:
Fifth Amendment
“No person shall be ... deprived of life, liberty, or property, without due process of law ...”
Fourteenth Amendment (Section If
“No State shall... deprive any person of life, liberty, or property, without due process of law”
Appearing in Appendix B, page 2

vii

STATEMENT OF THE CASE
Respectfully, in the course of my representing a client in a litigated matter, I uncovered a
scheme of insurance fraud being committed by the litigation opponent, the attorneys representing
that opponent, and State government officials. One of the attorneys involved in the fraud was a
former State judicial officer. A demand was made by the judge assigned to the litigated matter
upon me to participate in covering-up the exposed insurance fraud so as to protect the former
State judicial officer from penal exposure, for me abandon my client’s interest by withdrawing
my client’s petition for restitution. I refused to participate in covering-up the insurance fraud.
Consequently, monetary sanction orders were threatened to be fabricated and imposed upon me
unless I cooperated in aiding and abetting the cover-up effort. Again, I refused to participate in
that wrongdoing, and the threatened monetary sanction orders were fabricated and imposed.
I undertook a legal challenge to the constitutional validity of those orders, instead of simply
paying the sanction amount, as an exercise of my constitutional rights and duties, as the law
allows, CANATELLA vs. STOVITZ 365 F. Supp. 2d 1064 (N. D. Cal. 2005)
(“CANATELLA”), which at pages 1073-1074, holds:
“... attorneys may be disciplined for violating only court orders that an attorney ‘ought in
goodfaith’ to comply with ... This provision ensures that attorneys will not be
disciplined for failing to comply with an unjust court order. The provision .... allows for
an attorney to exercise his or her right to disobey a court order the attorney believes to be
unconstitutional” (emphasis added).
The Collateral Bar Rule is not the rule in California, PEOPLE vs. GONZALEZ (1996) 12 Cal.
4th 804 (“GONZALEZ”), at pages 818-819, IN RE BERRY (1968) 68 Cal. 2d 137 (“BERRY”),
at pages 148-149.
One of the state government officials, Ms. Ronnie Caplane (“Caplane”), had undisclosed
disqualifying relationships with the judges of the California State Bar (“CSBar”) Court, as well
as with the justices of the California Supreme Court. Through those relationships and their undue
influence, Caplane had the CSBar contrive a charge against me for alleged willful disobedience
1

of the monetary sanction orders, for professional discipline to be imposed against me, to discredit
me professionally, in retaliation for my refusing to participate in covering up the insurance fraud
in which Caplane was one of the involved participants. The CSBar said it would drop the
charges if I participated in the cover-up by my paying the subject fabricated monetary sanction
orders to make it falsely appear that I had been overzealous and having revealed the insurance
fraud. Again, I refuse to so participate in aiding and abetting the insurance fraud.
A CSBar Court professional discipline trial in CSBar Court case number 09-0-10207-PEM was
conducted. The CSBar Court bore the burden of proof, as is reflected in appendix D, on its page
44, which is a true incorrect copy of page 6 from the CSBar disposition document, where, in the
final paragraph of that page, the CSBar Court judges correctly identify the burden of proof
required to be met in order for any professional discipline to be imposed — “to establish ... he
knew there was a final, binding court order.” Thus, the CSBar had to prove by clear and
convincing evidence that the subject monetary sanction orders were (l)final - that their
constitutional status was not subject to being challenged, (2)binding — that the subject orders
were indeed constitutionally valid, and (3)known by the charged attorney to be so “final” and
“binding”. As reflected in Appendix D, which is a true and correct copy of the verified
Complaint in the United States District Court for the District of Columbia (“USDC-DC”) case
number 1:20-cv-00031 -APM, at pages 35 through 42, the pertinent portion of the trial transcript
of CSBar Court case number 09-0-10207-PEM demonstrates that the required elements of the
burden of proof were not only not met, but were proven to be negated.
The CSBar issued its disposition, which is a part of the judgment roll. Appendix D, at its page
45, and as the entirety of Appendix E, is it true copy of page 10 of the CSBar’s disposition
document. On that page, right there in the judgment roll, at line 7-8, the involved CSBar judges
admit that the required burden of proof was indeed not met - “Also, the hearing judge did not
determine the constitutionality of the orders ...” And, at lines 8-9, those CSBar Court judges
2

then imposed extrinsic fraud upon the institution of the Court, and upon me, by capricious
tyranny, in the wrongful displacement of the factual merits, that the punishment of professional
discipline (the suspension of my law license) could be achieved in defiance of the admitted
failure to have met the required burden of proof by contriving a conviction through mere
whimsical fiat - “she simply recommended discipline for Reiner’s failure to obey them, as she is
authorized to do.”
No one, absolutely no one, anywhere in the United States of America, is at all authorized to
impose a contrived conviction in defiance of the admitted failure to have met the required burden
of proof. Such imposition of falsehood into a litigated matter by an officer of the Court
constitutes fraud upon the institution of the Court, IN RE INTERMAGNETICS AMERICA.
INC 926 F. 2d 912 (9th Cir. 1991) (“INTERMAGNETICS”), at page 916, as such fraudulently
contrived conviction also constitutes a deprivation of Procedural Due Process and its component
part of having a meaningful opportunity to be heard, COFFIN vs. UNITED STATES 156 U. S.
432 (1895) (“COFFIN”), at pages 458-459 because:
“... if a man be accused... he must be proved guilty ... he must be acquitted unless he is
proven to be guilty” (emphasis added),
as

“a conviction based upon a record wholly devoid of any relevant evidence of a crucial
element of the offense charged is constitutionally infirm” (emphasis added)
JACKSON vs. VIRGINIA 443 U. S. 307 (1979) (“JACKSON”), at page 314. Such dispositions
so contrived by judicial officers in deprivation of a meaningful opportunity to be heard are
legally null and void, UNITED STUDENT AID FUNDS. INC, vs. ESPINOZA 559 U. S. 260
(2010 )(“UNITED”), at pages 270-271, as
“the due process clause would not permit any ‘procedure which would offer a possible
temptation to the average man as a judge to forget the burden ofproof required to
convict the defendant(emphasis added)
MARSHALL vs. JERICHO. INC. 446 U. S. 238 (1980)(“MARSHALL”), at page 242, as
3

“the ‘right to be heard before being condemned to suffer grievous loss of any kind, even
though it may not involve the stigma and hardships of a criminal conviction, is a
principal basic to our society”' (emphasis added),
MATHEWS vs. ELDRIDGE 424 U. S. 319 (1976) (“MATHEWS”), at page 333, as such
judicial dysfunction “... is judicial usurpation and oppression, and never can be upheld...” (emphasis
added),
OLD WAYNE MUTUAL LIFE ASS’N vs. MCDONOUGH 204 U. S. 8 (1907) (“WAYNE”), at
page 17.
Such dispositions, which are legally null and void from having been procured by such
deprivation of affording the victimized litigant a meaningful opportunity to have been heard by
defiance of the evidence adduced, and that evidence’s failure to have fully met an element of the
required burden of proof, are forever null and void, and any effort to premise another disposition
upon one which is so null and void, is itself also legally null and void, as “A sentence of a court pronounced against a party without... giving him an opportunity
to be heard, is not a judicial determination of his rights, and is not entitled to respect in
any other tribunal’ (emphasis added),
WINDSOR vs. MCVEIGH 93 U. S. 274 (1876) (“WINDSOR”), at page 277, as each such null
and void disposition is“not entitled to full faith and credit when sued upon in another jurisdiction ... Moreover,
due process requires that no otherjurisdiction shall give effect, even as a matter of
comity ...” (emphasis added),
GRIFFIN vs. GRIFFIN 327 U. S. 220 (1945) (“GRIFFIN”), at pages 228-229.
In outright defiance of the law, and the legally null and void nature of the CSBar Court’s
disposition in its case number 09-0-10207-PEM, the Justices of the California Supreme Court, in
devotion to the undue influence of the undisclosed, disqualifying relationships with Caplane, and
to discredit me professionally for my refusal to aid and abet the “protection” of Caplane from
penal exposure, imposed a “suspension order” upon my law license premised upon the legally
4

null and void CSBar Court’s legally null and void disposition in its case number 09-0-10207PEM. When I took the position that such “suspension order” was also legally null and void, the
Justices of the California Supreme then imposed an equally null and void “disbarment order”
upon my law license, as stated in Appendix D. Such legally null and void dispositions are
subject to collateral attack at any time, and at any place, KALB vs. FEUERSTEIN 308 U. S. 433
(1940) (“KALB”) at page 438, and equally so under HAZEL.
Because I was admitted to the Bar of the Supreme Court of the United States (“SCOTUS”), I
duly filed and served a SCOTUS Rule 8 Petition, pursuant to the HAZEL case, which became
assigned SCOTUS case number 18D3030. And, as fully described in Appendix D, in its page 7,
beginning at line 4 through its page 29, line 17,1 was, in that SCOTUS case, equally deprived of
Procedural Due Process, and its component of having a meaningful opportunity to be heard by
the imposition of extrinsic fraud upon the institution of the Court by the participation of Roberts,
Kagen, Wood and Silver, in the provision of a reciprocal legally null and void “disbarment
order”.
I then duly filed and served a lawsuit in USDC-DC, which was assigned case number 1:20-cv00031-APM. I also sent a January 15, 2020,2-page letter to Roberts (Appendix F). I was then
contacted by SCOTUS counsel, Ethan Torrey. He confirmed the imposition of the complainedof, injury-producing, extrinsic fraud. He informed me that as a SCOTUS Rule 8 petition, it
never saw the “cert pool”, and was commandeered for extrinsic fraud, more or less as surmised
. in the verified Complaint in USDC-DC case number 1:20-cv-00031-APM. Mr. Torrey informed
that I was wasting my time with the USDC-DC lawsuit because Roberts could, and would,
exercise his influence to have the lawsuit wrongfully dismissed. I filed a Motion for Summary
Judgment in USDC-DC case number l:20-cv-00031-APM against the Defendant corporate entity
(California Business and Professions Code Section 6001), the CSBar, to recover, as tort

5

f .

damages, my law license and at least my compensatory damages, if not punitive damages as
well, due to the fact that the CSBar had fully, and despicably, at every opportunity, participated
in the wrongfully imposed extrinsic fraud depriving me of a meaningful opportunity to heard, as
my litigation opponent in CSBar Court case number 09-0-10207-PEM, as well as in the two
California Supreme Court matters, and in SCOTUS matter 18D3030, without ever fulfilling its
legal obligation that the CSBar owed, and continues to owe, to me under California Business and
Professions Code Section 6085, to ensure that I be provided with Procedural Due Process, and
not be deprived of it. Under the case of DENNIS vs. SPARKS 449 U. S. 24 (1980)
(“DENNIS”), as well as under the HAZEL case, while the involved judicial officers enjoy
immunity, the CSBar does not, and the CSBar bears legal liability to me for all of my damages.
In response to my Motion for Summary Judgment in USDC-DC case number l:20-cv-00031APM, the assigned trial Judge, and a little later, the assigned appellate judges, fulfilled Ethan
Torrey’s prediction that by virtue of the extrinsic fraud being imposed by Roberts, justice would
be obstructed, so that the wrongdoers could evade justice, at the expense of my constitutional
rights. The assigned trial judge, and the assigned appellate judges, at Appendix B and Appendix
A, came up with, and imposed upon the institution of the Court, and upon me, the further
insulting-to-human-intelligence extrinsic fraud that (l)supposedly the deprivation of my law
license as procured by deprivation of my federal constitutional right of Procedural Due Process,
and of my being deprived of having a meaningful opportunity to be heard, is supposedly
“frivolous” and “patently insubstantial”, under the case of HAGANS vs. LAVINE 415 U. S. 528
(1974) ( HAGANS”), which, at page 538, actually demands that Courts do not engage in makebelieve:
“A claim is insubstantial only if ‘its unsoundness so clearly results from previous
decisions of this court as to foreclose the subject and leave no room for the inference that
the questions sought to be raised can be the subject of controversy’”
6

with the fraudulent assertion of my claims being “frivolous” and “insubstantial” being in direct
defiance of WILLNER vs. COMMITTEE ON CHARACTER 373 U. S. 96 (1963)
(“WILLNER”), which at page 102 holds that such issue of deprivation of a law license
“is justiciable”, and (2)that the Rooker-Feldman Doctrine also supposedly applies to challenged
legally null and void federal court dispositions (the legally null and void SCOTUS case
18D3030), as well as administrative agency dispositions (CSBar Court case 09-0-10207-PEM),
which is an administrative agency disposition, as “Under California law, attorney disciplinary matters are handled by the State bar Court
... an administrative agency ...” (emphasis added),
HIRSH vs. JUSTICES OF THE SUPREME COURT OF THE STATE OF CALIFORNIA 67 F.
3d 708 (9th Cir. 1995) (’’HIRSH”). As to state administrative agencies, the governing law,
LANCE vs. DENNIS 546 U. S. 459 (2006)(“LANCE”), at page 464, holds that the RookerFeldman Doctrine is inapplicable. The Petition for Rehearing was denied on March 2, 2021.
I. WHAT IS OWED TO THE CHEATED. VICTIMIZED LITIGANT UNDER THE
HAZEL CASE?
Under the HAZEL case, the CSBar is liable for (l)the immediate restoration of my law license,
(2)payment to me of my compensatory damages (now at $12,689,750.00), and (3)an appropriate
amount for punitive damages, which should be at least on a one-to-one multiple factor as to
compensatory damages. Under the HAZEL case, Roberts, and Kagan, and Wood, and Silver, and
each of them, owe to me immediate disclosure as to the identity of every person who was
involved in cheating me in relation to SCOTUS case number 18D3030. Because the CSBar (as
well as Roberts, Kagan, Wood, and Silver) is bent on commitment to the subject, complained-of,
injury-producing criminal and civil malfeasance, its respective devotion to maintaining the
wrongdoing adverse to me should be seen as being no different than the commitment to

7

wrongdoing that was demonstrated by officer Derek Chauvin in maintaining his knee on George
Floyd’s neck. Each of these wrongful acts, and their maintenance, is utterly despicable.
II. WHAT IS OWED TO OUR SOCIETY UNDER THE HAZEL CASE?
Under the HAZEL case, every SCOTUS Justice, every SCOTUS law clerk, every SCOTUS
court clerk, Ethan Torrey, and anyone else who has information regarding my having been
cheated in relation to SCOTUS case number 18D3030, has the affirmative duty, which is owed
to the Constitution of the United States of America, and to our society, to make full disclosure of
every bit of information regarding that criminal malfeasance that was imposed upon the integrity
of SCOTUS, and imposed to victimize me, to the Federal Bureau of Investigation, the Justice
Department, the United States Attorney’s Criminal office, and the House Judiciary Committee,
as well as making a public demand for Roberts, Kagan, Wood, Silver, and Ethan Torrey, to
immediately leave their respective employments with SCOTUS, as was required for former
SCOTUS Justice Abe Fortas when he was corrupted through the undue influence of Louis
Wolfson. Because Roberts, Kagan, Wood, Silver, and Ethan Torrey are each, to varying
degrees, tainted by their willful and knowing participation in the complained-of corruption,
which constitutes criminal malfeasance, they are each subject to being blackmailed on any given
case in the future. And because SCOTUS entertains litigation involving the interests of foreign
governments and businesses, some of which are adverse to the interests of our society, we cannot
afford to have Roberts, Kagan, Wood, Silver, Ethan Torrey, and everyone else who is so tainted,
from exposing our society’s need for unhindered access to justice to the ominous menace of
these wrongdoer’s taint and susceptibility.to surreptitiously rendering injustice.
III. CONCLUSION
Under the HAZEL case, SCOTUS has not only the Equity authority to do everything so as to

8

*<?

5

**

•<

correct the injustice that has transpired, SCOTUS also has the duty to do so.
Dated: May 27, 2021

\
MARTIN REINER

9

